HHS/OIG-Audit--"National Heritage Insurance Company Chico, California
Audit of Medicare Final Administrative Cost Proposals for the period October 1,
1995 through September 30, 1998, (A-09-99-00090)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"National Heritage Insurance Company Chico, California Audit of Medicare
Final Administrative Cost Proposals for the Period October 1, 1995 through September
30, 1998," (A-09-99-00090)
April 17, 2000
Complete Text of Report is available in PDF format
(609 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was a review of the National Heritage Insurance Company's (NHIC)
Final Administrative Cost Proposals under the Medicare program of the period
October 1, 1995 through September 30, 1998. NHIC claimed program administrative
costs of $87,734,514. The audit was performed by independent auditors who found
that NHIC was in compliance with the Federal Acquisition Regulation and generally
accepted accounting standards. There were no findings and recommendations related
to this report.